HHS/OIG, Audit -"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Indiana Family and Social Services Administration,"(A-06-01-00008)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Indiana Family and Social Services Administration," (A-06-01-00008)
December 6, 2001
Complete
Text of Report is available in PDF format (507 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price
(AWP) minus a percentage discount, which varies by State, as a basis for reimbursing
pharmacies for drug prescriptions.  Therefore, the objective of this review
was to develop for the Indiana Medicaid program an estimate of the discount below
AWP at which pharmacies purchase brand name and generic drugs.  Our estimate
of the overall discount below AWP for the invoice prices we reviewed was 21.78
percent for brand name drugs and 66.71 percent for generic drugs.  Our national
estimates, included in reports previously issued were 21.84 percent and 65.93
percent respectively.  We recommended that the Indiana Family and Social
Services Administration (State Agency) consider the results of our review as
a factor in any future changes to pharmacy reimbursement for Medicaid drugs.  The
State Agency concurred.